No. 20 - 32
IN THE
SUPREME COURT OF THE UNITED STATES
STEVE MORSA,
Petitioner
v.
Andreu Iancu, Director,
U.S. PATENT AND TRADEMARK OFFICE,
Respondent
CERTIFICATE OF SERVICE
First, I certify that on October 13 th, 2020, Petitioner’s PETITION FOR
REHEARING was served on Jeffrey B. Wall, Acting Solicitor General and Counsel
of Record at SupremeCtBriefs@USDOJ.gov; and mailed via First Class Mail,
postage prepaid to: Jeffrey B. Wall, United States Dept, of Justice, 950
Pennsylvania Avenue, NW, Washington, DC 20530-0001.

CERTIFICATE OF WORD COUNT
Second, I certify that the attached PETITION FOR REHEARING contains 214
words.

Steve Morsa
POB 1996
Thousand Oaks, CA 91358
805.495.5025
stevemorsa@cs.com

